                                               Testimony of

                           THE HONORABLE TODD J. ZINSER
                                INSPECTOR GENERAL
                               U.S. DEPARTMENT OF COMMERCE

                                                  before the

     Subcommittee on Commerce, Justice, Science, and Related Agencies,
           Committee on Appropriations, United States Senate

                                      Thursday, March 4, 2010


                          Department of Commerce
                     Appropriations for Fiscal Year 2011:
                    Top Challenges Facing the Department
Chairwoman Mikulski, Ranking Member Shelby, and Members of the Subcommittee:

Thank you for inviting us to testify today as you consider the Fiscal Year 2011
appropriations for the Department of Commerce. Today I will highlight five areas that we
identify in our recent Top Management Challenges report and that the Subcommittee may
want to include on its short list of watch items. I will also address several organizational
issues and other matters of importance to the Department.

The challenges I will discuss focus on the following five areas:1

•      Decennial Census: Mitigating issues with the 2010 decennial while addressing future
       census challenges.

•      Information Technology (IT) Security: Continuing to enhance the Department’s
       ability to defend its systems and data against increasing cyber security threats.

•      National Oceanic and Atmospheric Administration (NOAA) Environmental
       Satellites: Effectively managing technical, budgetary, and governance issues
       surrounding the acquisition of NOAA’s two environmental satellite programs.


1
    A more detailed discussion of these challenges is presented in our January 12, 2010, report, Top
    Management Challenges Facing the Department of Commerce, Final Report No. OIG-19884.
•      American Recovery and Reinvestment Act: 2 Meeting the challenges of
       accountability and transparency with effective oversight of program performance,
       compliance, spending, and reporting.

•      United States Patent and Trademark Office (USPTO): Addressing the Patent
       Office’s resource and process issues.

Most of our audit and evaluation efforts this fiscal year are being expended in these areas.
In planning our work for FY 2011, we are, for the first time, conducting a formal risk
assessment of Commerce activities to identify those most in need of oversight. Specifics
on our current Top Management Challenges follow.


I.         Decennial Census:
           CENSUS NEEDS TO ENSURE ACCURACY AND CONTAIN 2010 DECENNIAL
           COSTS WHILE ADDRESSING FUTURE CENSUS CHALLENGES

With a life-cycle cost estimate now projected to total $14.7 billion, the 2010 Census is a
massive undertaking made up of many moving parts. The bureau must integrate 44
separate operations (with a total of some 9,400 program- and project-level activities). In
just over a week, the public will begin receiving their census forms in the mail. The rate
at which they return their responses will be critical in determining the overall cost of the
census. Households that do not mail back their forms will be visited by an enumerator
during nonresponse follow-up (NRFU). The most expensive operation of the decennial, it
is estimated that NRFU will cost $2.3 billion.

The FY 2010 decennial budget for carrying out the 2010 Census involving the 10-
question short form was $6.9 billion, which included $100 million carried over from FY
2009. For FY 2011, the bureau has requested slightly more than $477 million to complete
the 2010 Census.

The mission of the census—to count each of the over 300 million people in more than
130 million households in the United States once, only once, and in the right place—is a
daunting task. For decennial field operations, temporary bureau management staff must
run just under 500 local offices and manage over 600,000 temporary workers—while
recruiting substantially more.

While much of the bureau’s plan is on track, NRFU efficiency and accuracy are at some
risk, and final decennial costs remain uncertain. The success of NRFU—which begins in
just 8 weeks—hinges on how effectively Census controls the enormous NRFU workload
and workforce, and it must do so using a Paper-based Operations Control System (PBOCS)
which, because of system development problems, will have less functionality than
planned and is currently experiencing performance problems. PBOCS is essential for


2
    American Recovery and Reinvestment Act of 2009, Pub. L. No. 111-5.

                                                    2
efficiently making assignments to enumerators, tracking enumeration forms, and
reporting on the status of the operation.

            ¾ Cost Containment is Essential for Field Operations, but Requires Strong
              Budget Estimation Capability and Effective Internal Controls

The ability to produce valid budget estimates is essential for cost containment. Yet
Census reported a 25-percent cost overrun for address canvassing and spent 41-percent
less than anticipated for group quarters validation. 3 Inaccuracies of this magnitude in
estimated budgets, combined with wide variances among early local Census offices in
address canvassing costs, indicate significant weaknesses in the bureau’s budget
estimation capabilities.

Also essential to cost containment is better management of census fieldwork. We found
inefficiencies in wages, travel, and training during the address canvassing operation,
including workers being paid to attend training classes but who subsequently performed
little or no work, workers who made excessive mileage claims, and workers who were
reimbursed for mileage at a higher-than-authorized rate. Given the significantly larger
scale of NRFU, it is important that Census develop effective internal controls and ensure
that managers scrupulously follow them during this operation.

The final decennial cost remains uncertain; three key factors could have significant cost
impact. According to the bureau, the mail response rate could have the greatest impact,
with enumerator productivity a second major cost driver. The third issue concerns the
capabilities and performance of PBOCS for NRFU. This, along with the bureau’s ability to
implement effective workarounds for PBOCS shortfalls, will determine the ultimate
schedule and degree of efficiency, and thus the final cost.

            ¾ OIG Oversight Plan For Decennial Operations

The Office of Inspector General (OIG) will continue to monitor the bureau’s progress on
PBOCS and other key decennial activities. In addition, over the next several months, about
100 members of our staff will be participating in what is for us an unprecedented effort in
scope and resource commitment to go on the road and observe census workers in action.
Such oversight, while census activities are ongoing, will allow us to immediately observe
successes as well as any problems that might arise, and notify the bureau without delay.

            ¾ The Groundwork for an Improved and Cost-effective 2020 Census Should
              be Set This Year

The cost of the decennial census has doubled every decade since 1970 (not adjusted for
inflation). On the current trajectory, the price of the 2020 census could total more than
$30 billion. Census must find ways to rein in costs while maintaining or enhancing
accuracy. It is crucial for the bureau to lay the groundwork now for the 2020 census.
3
    The group quarters validation operation is aimed at verifying information from all potential group
    quarters—such as dormitories and prisons—nationwide.

                                                        3
The Supplemental Appropriations Act of 2008 4 gave the Census Bureau an additional
$210 million to help cover spiraling 2010 decennial costs. As directed in the explanatory
statement accompanying the Act, OIG has been providing quarterly reports to
congressional appropriations committees that assess the bureau’s progress against its
2010 decennial plan. In our first quarterly report, we reported that the bureau’s ability to
effectively oversee decennial progress has long been hampered by inherent weaknesses in
its systems and information for tracking schedule activities, cost, and risk management
actions. Our recommendations to address these problems for the 2020 decennial
emphasized the need for an integrated method for planning and tracking of budget,
schedule, and progress.

To effectively plan and manage the next decennial, Census needs to significantly improve
its cost estimation capabilities and provide a well-documented cost estimate as early as
possible. Our first quarterly report also noted that Census needs to develop transparent
decision documentation for the 2020 census that clearly identifies the basis for spending
decisions and the rationale for changes to plans provided to Congress and other
stakeholders.

The findings of our two subsequent quarterly reviews, combined with other evaluations
we conducted throughout the decade, demonstrate that Census needs to identify more
cost-effective approaches to the decennial and should give serious consideration to the
use of such alternatives as administrative records, the Internet, and targeted address
canvassing. These and other possible approaches have the potential to contain costs while
increasing accuracy and efficiency.


II.         Information Technology (IT) Security:
            COMMERCE MUST CONTINUE ENHANCING THE DEPARTMENT’S ABILITY
            TO DEFEND ITS SYSTEMS AND DATA AGAINST INCREASING CYBER
            SECURITY THREATS

Commerce’s budgets for information technology have increased since FY 2008, primarily
for investments at Census and NOAA (see box). Despite the millions of dollars spent on
       Commerce Budget for IT and IT Security           cybersecurity, Commerce’s
                           IT Security  Percentage of approximately 300 computer
Fiscal        IT Budget        Budget    Budget Spent systems, many that process and
Year       ($ millions)a  ($ millions)a on IT Securitya store sensitive mission-critical
2008             $1,789           $116             7% data, are not always adequately
                                                        protected.
2009                    2,273        170               8%
2010                    3,042        240               8%   While maintaining IT security is
2011                    2,631        307              12%   inherently challenging,
a
 rounded                                                    Commerce’s decentralized
Source: Estimates provided by the Department of Commerce,   management structure adds to the
Office of the Chief Information Officer

4
    Pub. L. No. 110-252, Title II.

                                                 4
difficulty. Commerce operating units have separate management structures that preclude
direct accountability to the Department’s Chief Information Officer (CIO). This
decentralization gives the CIO only limited authority over the daily management of IT
security within Commerce’s operating units, and adds complexity to Department-wide
information security initiatives.

           ¾ Commerce Is Taking Steps to Strengthen Its IT Security Workforce

An audit we conducted in FY 2009 found that the Department needed to devote more
attention to the development, guidance, and performance management of its IT security
personnel. We made recommendations to improve employee training, professional
development, and performance management. Among the numerous improvements that
the Department is now making, it plans to require professional certifications for
employees with significant IT security responsibilities. This is a noteworthy step in
building a highly competent IT security workforce—one that few, if any, civilian agencies
are taking.

           ¾ Departmental Actions to Resolve Material Weakness in IT Security Are
             Showing Progress, but More Work Will Be Necessary

The Federal Information Security Management Act of 2002 5 (FISMA) requires agencies to
certify that their systems and data are protected with adequate, functional security
controls before systems are authorized (accredited) to operate. If a management control
weakness is sufficiently serious that the agency head determines it should be reported in
the annual Performance and Accountability Report, it is termed a material weakness. IT
security has been reported as a material weakness since FY 2001 pursuant to the Federal
Managers’ Financial Integrity Act of 1982. 6 While the Department is continuing to make
progress, our FY 2009 FISMA review identified vulnerabilities in technical security
controls that leave Department systems and data at risk for internal and external
malicious attacks. Therefore, we recommended—and the Department agreed—that the
material weakness should stand until more improvements are made.

We report on USPTO separately for purposes of FISMA because, as a performance-based
organization, it submits a separate Performance and Accountability Report. Although the
two USPTO systems we evaluated in FY 2009 met FISMA requirements, we did not have
sufficient evidence to recommend removal of the material weakness. In our view, the
bureau has not demonstrated a consistent, effective process for certification and
accreditation, and we continued to identify problems that we reported on in the past.
Nevertheless, USPTO management determined that its IT security issues have been
adequately resolved and did not report IT security as a material weakness in its FY 2009
Performance and Accountability Report—a position with which we disagree.

In this fiscal year, the Department’s CIO will begin implementing a 3-year plan that takes
a Department-wide, holistic approach to improving Commerce’s overall security posture.

5
    Pub. L. No. 107-347, Title III, §§ 301-302, 44 U.S.C. §§ 3541-3549, 40 U.S.C. § 11331.
6
    Pub. L. No. 97-255 (codified as amended in scattered sections of 31 U.S.C.).

                                                      5
The plan addresses continuous monitoring of security controls, situational awareness,
incident detection and response, and other aspects of an effective IT security program,
including improving IT workforce competencies.


III.        National Oceanic and Atmospheric Administration (NOAA)
            Environmental Satellites:
            NOAA MUST EFFECTIVELY MANAGE TECHNICAL, BUDGETARY, AND
            GOVERNANCE ISSUES SURROUNDING THE ACQUISITION OF TWO
            ENVIRONMENTAL SATELLITE SYSTEMS

NOAA   is modernizing its environmental monitoring capabilities, in part by spending an
estimated total of nearly $20 billion on two critical satellite systems: the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) and the Geostationary
Operational Environmental Satellite-R Series (GOES-R). Space acquisitions such as
NPOESS and GOES-R are highly technical and complex; such programs have a history of
cost overruns, schedule delays, and reduced performance capabilities.

The NPOESS and GOES-R programs have already suffered significant cost increases and
delays. Because of serious problems with NPOESS, the program is beginning to undergo a
restructuring, as discussed below. These programs will continue to require close
oversight to minimize further disruption to the programs and prevent any gaps in satellite
coverage. Such gaps could compromise the United States’ ability to forecast weather and
monitor climate, which would have serious consequences for the safety and security of
the nation.

            ¾ NPOESS Background

The objective of NPOESS was to provide continuous weather and environmental data for
longer term weather forecasting and climate monitoring through the coming two decades.
NPOESS has been managed jointly by NOAA, the National Aeronautics and Space
Administration (NASA), and the Department of Defense. NOAA and Defense shared the
cost of the NPOESS program equally. The initial project plan called for the purchase of six
satellites at a cost of $6.5 billion, with a first launch in 2008. But problems with a key
sensor raised costs and delayed the date of the first launch, even as the number of
satellites in the system was reduced to four.

By December 2008, NPOESS' total estimated life-cycle cost had grown to $14 billion.
NOAA  announced in March 2009 that it would delay the first launch to 2014 because of
continuing problems with the sensor. It also delayed the planned NPOESS Preparatory
Project 7 launch date from 2010 to 2011.



7
    The NPOESS Preparatory Project was planned as a risk-reduction effort to test NPOESS’ new instruments in
    flight. NASA is taking the lead in this activity.

                                                       6
       ¾ Restructuring of the NPOESS Program Deemed Critical to Its Success

In the spring of 2009, an independent team was appointed to examine the program’s
status. The team, comprising satellite experts from industry, academia, and government,
found that the NPOESS program had a low probability of success. In the fall of 2009,
NOAA, NASA, and Defense worked with the White House Office of Science and
Technology Policy and the Office of Management and Budget to select the best option
for restructuring. The option chosen, called Divergence, was considered the most feasible
because it would not require Defense and NOAA to continue to try to resolve their
conflicting perspectives and priorities. As a result, NOAA and NASA plan to acquire a
separate satellite, called the Joint Polar Satellite System (JPSS).

The three agencies have formed a transition team to implement the Divergence plan.
Although the complete details of the plan are still being developed, NOAA/NASA intend to
use the applicable components for JPSS that were funded and developed under the
previous NPOESS structure.

Under Divergence, Defense will be responsible for the early morning orbit, Defense and
the European Organization for the Exploitation of Meteorological Satellites will cover the
mid-morning orbit, and a NOAA/NASA-managed JPSS acquisition will cover the afternoon
orbit. The orbits are based on the local time that the satellite crosses the equator as it
circles the earth. Satellite coverage in all of these orbits allows the same point on the
earth to be sampled frequently enough and at the correct time of day (under sunlight or
darkness) to meet each agency’s operational requirements, provide sufficient data for
both severe storm prediction and detection, and provide climate monitoring for our
nation’s safety and security.

NOAA, NASA,    and Defense will implement the transition plan from now into FY 2011. To
accomplish this, NOAA’S FY 2011 budget request for JPSS totals $1.1 billion, a $679-
million increase over the FY 2010 budget. The JPSS program will continue development of
the instruments needed for the afternoon orbit. The JPSS management structure is planned
to be similar to NOAA’s next generation GOES-R, in which NOAA manages the overall
program with assistance from NASA. NOAA will acquire two JPSS satellites and will
continue climate sensor acquisitions under the NOAA climate program. The cost estimate
for JPSS is $11.9 billion; this includes funding for transition of instrument acquisitions
from Defense to NASA, NOAA’s share of NPOESS contract termination costs, and
procurement of two JPSS satellites.

Defense is also conducting a study to evaluate the best approach for maintaining
continuity of its polar satellites. It has two remaining satellites under the ongoing Defense
Meteorological Satellite Program (DMSP). The availability of DMSP satellites through
2018 could significantly delay the need to acquire a replacement satellite. However, it is
essential that Defense maintain funding to account for the long lead time required to build
satellite capability because it remains responsible for data continuity in the early-morning
orbit beyond the last DMSP satellite’s life span.


                                             7
         ¾ GOES-R Background

The GOES-R 8 system is intended to offer an uninterrupted flow of high-quality data for
short-range weather forecasting and warning, as well as provide climate research data
through 2028. NOAA is responsible for managing the entire program and for acquiring the
ground segment, which is used to control satellite operations and to generate and
distribute instrument data products. NOAA awarded the ground segment contract in May
2009, which has a 10-year duration and a total estimated value of $736 million, if all
options are exercised.

NASA’s  Goddard Space Flight Center in Greenbelt, Maryland, is responsible for acquiring
the spacecraft and instruments for the program. In December 2008, NASA’s award of the
GOES-R spacecraft contract—with a total estimated value of $1.1 billion for two
spacecraft, including the options for two additional spacecraft—was protested by the
losing bidder. Work stopped until the protest was withdrawn in August 2009. As a result,
launch readiness for the two satellites was deferred by 6 months. 9

According to program documentation, the overall GOES-R program acquisition is on track
and within budget to meet the revised launch schedule for systems engineering and
integration and both the flight and ground segments. The next significant program events
are the system design reviews for the spacecraft and ground segment, scheduled for this
month and next, respectively.

Any further delays in the satellite's launch readiness will increase the risk of NOAA’s not
meeting its requirement to have an on-orbit spare and two operational GOES satellites
available to monitor the Pacific and Atlantic basins in 2015. We will monitor the
program’s cost and schedule to ensure that the bureau mitigates the risk of any further
delays.




8
  Since 1975, the GOES series of satellites have provided the United States with critical meteorological
  data for weather observation, research, and forecasting. Satellites in production are given letter
  designations, which are changed to numbers after the satellites reach orbit.
9
  The first satellite’s launch date has been delayed from April to October 2015; the second from August
  2016 to February 2017.

                                                     8
IV.    American Recovery and Reinvestment Act :
       MEETING THE RECOVERY ACT CHALLENGES OF ACCOUNTABILITY AND
       TRANSPARENCY WITH EFFECTIVE OVERSIGHT OF PROGRAM
       PERFORMANCE, COMPLIANCE, SPENDING, AND REPORTING

The Department of Commerce received $7.9 billion in
                                                                 Commerce Stimulus
funding under the American Recovery and Reinvestment                 Funding*
Act of 2009 (see box). In addition to OIG, five Commerce      NTIA           $5 billion
agencies received stimulus funding. Of the $5.3 billion       Census          1 billion
going to the National Telecommunications and Information      NOAA         830 million
Administration (NTIA), $4.7 billion was for the Broadband     NIST
                                                                   a
                                                                           610 million
Technology Opportunities Program (BTOP). With the goal        EDA
                                                                  b
                                                                           150 million
of developing and expanding broadband services in areas       OIG           16 million
that have no service or are underserved, as well as           *rounded
                                                              a
improving broadband access among public safety agencies,        National Institute of Standards
BTOP is by far Commerce’s most challenging stimulus             and Technology
                                                              b
                                                                Economic Development
program.                                                        Administration
                                                              Source: OIG
We have taken several steps to implement an appropriate
oversight framework to track the stimulus activities undertaken
by Commerce. These steps include the assignment of dedicated
Recovery Act staff; advisory participation in Department steering committees and
working groups; and development of training programs to include fraud awareness,
administration of grants and contracts, and development and execution of a risk-based
audit plan. Some of the larger challenges that Commerce faces, as identified by this
oversight, are summarized below.

       ¾ Oversight Burden Will Increase in FY 2011

The sheer amount of Recovery Act money Commerce agencies received, coupled with
the unique requirements of the Act, makes ensuring appropriate spending—while also
providing economic stimulus as quickly as possible—a particular challenge. Commerce
agencies must spend funds appropriately with little time to prepare for the many new and
expanded programs, grants, and contracts established under the Act.

Attached to our testimony is a table that presents Department of Commerce Recovery Act
obligations and spending. As of February 19 of this year, the Department had obligated
approximately $2.1 billion in funds and spent approximately $649 million.

Although spending volumes are currently low, all funds must be obligated by FY 2011.
The need to distribute funds quickly to communities and businesses increases the risks
for fraud, waste, and abuse in both Recovery Act-funded activities and those Commerce
operations with more traditional funding mechanisms. Recovery Act agencies will need
sufficient resources to ensure that programs are delivering as intended, while providing
oversight to guard against misuse of funds. The Recovery Act substantially increases the
Department’s contracting and grants workload, particularly at NIST and NOAA, whose

                                            9
grants and contracts offices must manage not only the over $1.4 billion they received
under the Recovery Act but also the $4.7-billion BTOP program. NTIA relies on NIST and
NOAA for grants administration because it does not have its own staff and systems for this
purpose. Such increases place added pressure on these agencies to hire and retain
qualified personnel.

The Recovery Act has provided a relatively significant funding increase for NIST and
NOAA  construction projects. To complete them successfully, these agencies will need to
dedicate construction managers across Recovery Act grants- , contracts- , and regular
appropriation-funded projects.

        ¾ Meeting Agency and Recipient Reporting Requirements

The Recovery Act establishes specific reporting requirements for both agencies and fund
recipients. Federal agencies must report key information such as awards, obligations,
outlays, and major activities on a weekly basis. Fund recipients need to report on a
quarterly basis the projects and activities created and their completion status, as well as
jobs funded by stimulus money. Available to the American public, these data reports
must accurately reflect the use and impact of Recovery Act funds. An effectively
designed internal control structure that detects and prevents errors and omissions is vital
to data integrity.

We recently reviewed the adequacy of key information technology and operational
controls of the primary (source) grants, contracts, and/or financial systems for Census,
EDA, NIST, NOAA, and NTIA, to determine whether their controls ensure that the
Commerce reports posted on Recovery.gov are complete, accurate, and reliable.
Generally, the Commerce systems we reviewed had adequate data input/edit controls.
However, the lack of automated data transmission or interfaces from the grants systems
to Commerce’s financial system could lead to errors.

Without additional automation, it will become more difficult for Commerce agencies to
effectively manage their own reporting as the volume of grants and contracts increases; it
will also be difficult to ensure complete and accurate recipient reporting. Additional
automation would add efficiencies to the reporting process and decrease the risks of
reporting errors and delays. 10

In FY 2009, the Recovery Accountability and Transparency Board asked Inspectors
General to audit bureaus receiving Recovery Act funding to assess their ability to
perform reviews, identify reporting omissions and errors, and notify recipients who
should make appropriate and timely changes. Our audit found that Commerce and its
bureaus have proactively ensured that Recovery Act recipients recognize and meet
reporting requirements and deadlines. In addition, the Department has provided policy,


10
 More Automated Processing by Commerce Bureaus Would Improve Recovery Act Reporting, Final
Report No. OIG-19779, December 2009.


                                              10
guidance, and oversight to bureau grants and contracts officials to facilitate department-
wide standard review processes. The Department agreed with our recommendations to
fine-tune review procedures. 11

           ¾ Effectively Setting Up and Managing the New Broadband Technology
             Opportunities Program

A major Recovery Act initiative, NTIA’s BTOP, faces significant application and pre-award
review challenges to achieving its goals. The program aims to award over $4.5 billion in
grants in fewer than 18 months, a level of grants-award activity that no Commerce
operating unit has ever undertaken.

With BTOP, NTIA has had to staff a program office, develop grants program rules and
regulations, coordinate activities with several other departments and agencies (including
Agriculture and the Federal Communications Commission), award grants, and perform
effective oversight activities—all while limiting expenditures to 3 percent of the
program's appropriation ($141 million).

In early January, we met with the Assistant Secretary for Communications and
Information to discuss the status of our evaluation. We communicated program
challenges that—if unaddressed—we believed could cause NTIA to face difficulties in
meeting its statutory deadline of issuing broadband grants by September 30, 2010, and in
monitoring the grants after they are awarded. We shared the following concerns:

•      NTIA faces operational challenges with its current staffing levels, especially given the
       program’s complexity and deadline.
•      Documentation is not consistently available for operational program procedures,
       program staff roles and responsibilities, and key management decisions.
•      NTIA  encountered problems with the application-intake system during the first round
       of the application process because the system was unable to handle the volume of
       applications submitted; this resulted in extending the deadline for receiving
       applications. While system modifications were made, there was only a short period of
       time in which to sufficiently test the system and ensure that adequate functionality
       and capacity were delivered for the second-round application cycle.
•      NTIA also encountered challenges with the application review process. Volunteer peer
       reviewers failed to complete reviews or submit review scores in a timely manner.
       Supplemental contract reviewers were subsequently used to complete many of the
       application reviews. The review of applications was delayed nearly 3 months.




11
     Commerce Has Implemented Operations to Promote Accurate Recipient Reporting, but Improvements
     Are Needed, Final Report No. OIG-19847, October 30, 2009.


                                                   11
As NTIA enters its second round of issuing broadband grants, it needs not only to avoid
the problems with applications intake and recruitment of sufficient reviewers but also to
enhance internal program management operations for grants already awarded. In our
opinion, the program is at risk of not being able to efficiently and effectively issue its
second round of awards by the September 30, 2010, statutory deadline while
simultaneously providing post-award monitoring of first-round recipients. Continued
focus on improving program operations in these areas is critical.


V.      United States Patent and Trademark Office (USPTO):
        USPTO MUST ADDRESS ITS RESOURCE AND PROCESS ISSUES

With an enacted budget of $1.7 billion in FY 2010 and an FY 2011 budget request of $2
billion for patent operations, USPTO continues to struggle with increasing patent backlogs
and the need to improve patent examination efficiency and quality.

As shown below, since FY 2000, the number of patent examiners has more than doubled,
yet the length of time to process a patent has increased 40 percent. Further, the backlog of
applications awaiting review increased 139 percent.

            Comparison of Annual Patent Workload and Pendency,
                            FY 2000 and FY 2009


                                            FY2000        FY 2009      Change
           Patent Examiners                  2,900          6,200        114%
           Total Time to Process         25 months     35 months          40%
           Applications Backlog            308,000        736,000        139%
           Applications Filed              312,000        486,000         56%
                    Source: USPTO

Over the years, USPTO has worked to increase the number of patent examiners to address
the growing backlog; however, simply adding to the workforce without improving
processes and quality control will not suffice. The bureau must consider how to reform
and reengineer the various components of the patent application process to ensure timely
and high-quality application review. Further, its IT systems need to be updated to ensure
that they are able to process increasingly complex applications safely and securely, and
provide greater management oversight.

        ¾ Fee Structure, Funding Mechanisms Intertwined

USPTO must also address challenges with its funding mechanisms and fee structure. It is
now funded entirely by application, maintenance, and other fees paid by patent and
trademark applicants and owners. Congress is also involved in this process by setting
many of the fees legislatively and establishing a ceiling, through the appropriations
process, as to the maximum amount of fees USPTO can spend in a given year. For FY

                                            12
2011, the Administration proposes a 15-percent increase in certain patent fees to generate
additional revenue to cover operating expenses. It also proposes that USPTO be given fee-
setting authority and the authority to establish an operating reserve to manage operations
on a multiyear basis.

In November 2008, our Top Management Challenges report suggested that USPTO’s
unique financing structure could become increasingly risky. Subsequent downturns in the
U.S. and global economies quickly showed the structure’s vulnerabilities. In the
President’s FY 2009 budget, the bureau estimated that it would collect over $1.8 billion in
patent fees. However, by the end of that year, patent fee collections totaled just over $1.6
billion. Multiple factors contributed to this difference, including a reduction in the
number of patent applications filed and a decline in maintenance fees collected for
existing patents. To align expenses with actual patent fee collections, USPTO took steps
that included deferring the hiring of patent examiners, and curtailing or suspending
overtime and training.

These reductions increase the risk to USPTO’s ability to operate effectively in current and
future years, and its capacity to ensure that America's intellectual property system
encourages investment in innovation and contributes to a strong global economy. More
immediately, USPTO may not be able to process as many patent applications, which will
add to the backlog instead of working toward reducing it. In effect, fewer maintenance
fees will be available to collect in the future because fewer patents are being issued today.

As a result, in our view, the Department and Congress must require transparency and
quality with respect to USPTO’s cost data. This could include a review of USPTO’S cost
accounting system and how the system could be used to support decision making in
general—and in the event of cost reductions in the future, such as those that were
necessary in FY 2009.

The Under Secretary of Commerce for Intellectual Property, who is also the Director of
USPTO, has publicly acknowledged these and other difficulties. A 5-year plan contained in
the President’s Fiscal Year 2011 budget sets forth bold goals, such as reducing the time it
takes for a patent application to be initially reviewed to 10 months (from the present 26
months) by FY 2013. Similarly, by FY 2014, the bureau's goal for making a decision on a
patent application is 20 months, down from the present 35.


OTHER CHALLENGES FACING THE DEPARTMENT OF COMMERCE

In addition to these five top management challenges, we have identified several
organizational issues facing the Department in the coming year:

   ¾ Centralized Management and Oversight

The Department needs to continue its actions to centralize management and oversight in
order to make Departmental operations more efficient, consistent, and productive. The

                                             13
Department’s operating units have long-standing and independent business models,
cultures, and practices. This decentralized structure has created obstacles to Department
efforts to integrate and administer internal processes such as financial services, human
resources, grants and contracts management, IT, and major acquisitions. Increased
centralization has the potential to yield cost savings.

Commerce awarded over $2.2 billion in grants to some 4,000 recipients and over $3.2
billion in contracts to over 7,000 contractors during 2009. Grants and contracts are
administered by five separate bureaus, using three different grants systems and four
different procurement systems. Additionally, the Department’s Office of Acquisition
Management has limited authority over the agency’s grants and procurement offices,
which further contributes to the inconsistent management approaches across the
Department and adds to the difficulty in overseeing the effectiveness of operations and
programs.

    ¾ Contracts and Grants Management Workforce

Sufficient staffing for the contracts and grants management workforce has also been a
long-standing issue for the Department. Now, primarily as a result of the Recovery Act,
the Department and its operating units are issuing more grants and contracts than ever.
According to Department data, there are more than 1,500 Commerce employees holding
                                                                            certifications in various
                 Commerce Acquisition Workforce:                            acquisition positions (see
                   Number of Certified Personnel                            box). While the Department
Position                                                          Personnel does not track the number of
Contracting Officer/Specialist                                          180 grants personnel, we
Contracting Officer’s Representative/                                       recently conducted a survey
                                                           a
Contracting Officer’s Technical Representative                        1,313 of the sufficiency and
                                    a,b
Program/Project Manager                                                  49 qualifications of the
                                                       Total          1,542 Recovery Act acquisition
a
  Employees in these positions may not all be currently working on          and grants workforce. Based
b
  acquisitions.                                                             on our survey, for the five
  Certifications are only required if managing major acquisitions.          Commerce agencies
Source: Commerce Office of Acquisition Management
                                                                            receiving Recovery Act
funding, the grants workforce totaled over 800 employees. This includes grant officers,
grants program managers, and grants specialists.

Despite these numbers, however, the Department’s ability to appropriately issue and
oversee grants and contracts is hampered by a serious shortage of skilled, specially
trained staff. To ensure that grants and contracts are issued effectively and funds properly
spent, the Department needs to build up the size and skills of this workforce and improve
its oversight processes.




                                                  14
     ¾ NOAA Headquarters Leadership Structure

NOAA   continues to face the challenge of carrying out its multifaceted mission of
understanding and predicting changes in the earth’s environment and conserving and
managing coastal and marine resources to meet our nation’s economic, social, and
environmental needs. NOAA is realigning its headquarters leadership structure to
streamline decision making and provide greater policy-level attention to day-to day
management and oversight of its programs. The realignment is intended to provide
additional strategic guidance and leadership direction for the bureau's stewardship
responsibilities, including fisheries.

One of the key components of this mission is management, research, and services related
to the protection and rational use of living marine resources. We discussed NOAA’s need
to balance conservation and commercial fishing in last year’s Top Management
Challenges report. Over the past year, we have issued two reports that demonstrate, in
particular, the difficulty of achieving this balance. In our first report, we evaluated a
series of issues regarding the work and scientific methods of the National Marine
Fisheries Service’s (NMFS) Northeast Fisheries Science Center. 12 Our second report,
which we recently completed, provides an assessment of the policies and practices of the
Office for Law Enforcement within NMFS and NOAA’s Office of General Counsel for
Enforcement and Litigation. 13

     ¾ Commerce Headquarters Renovation

Finally, the Department’s headquarters, the General Services Administration (GSA)-
owned Herbert C. Hoover building in Washington, D.C., is undergoing an extensive
renovation. The renovation will take about 13 years and is estimated to cost almost $960
million to complete. The project is being funded mostly by GSA, but has the greatest
potential to disrupt Commerce operations and affect its workforce. Accordingly, the
Department has a primary interest in ensuring that the renovation is completed on time,
within budget, and free of fraud. To meet this goal, Commerce and GSA need to provide
comprehensive oversight throughout the project’s life cycle.


                                                -----




12
   Memorandum to National Marine Fisheries Service re: Northeast Fisheries Science Center, February 26,
   2009.
13
   Review of NOAA Fisheries Enforcement Programs and Operations, Final Report No. OIG-19887,
   January 21, 2010.

                                                  15
In conclusion, Madam Chairwoman, there is no doubt that the Commerce Department
faces much important yet challenging work in FY 2011. Accomplishing it will require
continual management oversight, and we intend to perform our role as well in monitoring
the progress of these essential programs. This concludes my prepared statement. I would
be happy to respond to any questions that you or other Members of the Subcommittee
may have at this time.




                                          16
         ATTACHMENT TO MARCH 4, 2010, TESTIMONY BY DEPARTMENT OF COMMERCE INSPECTOR GENERAL TODD J. ZINSER ON
            FY 2011 APPROPRIATIONS, SENATE SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                      Department of Commerce Recovery Act Spending, as of February 19, 2010 ($ in millions)


                                                                          Total            Total            Total   Remaining    Percentage
Bureau                 Purpose                                    Appropriation     Obligationsa   Disbursements      Unspent    Remaining
EDA                    Economic Investment                                  $150           $148                $6        $144          96%
                       Economic Adjustment Assistance
                       Program
Census                 2010 Census                                          1,000           340               210         790          79%
                       Additional personnel, training, targeted
                       media purchases, and risk reduction
NTIA
Broadband              Competitive grants to accelerate                     4,690           705                18        4,672         99%
                       broadband deployment in unserved
                       and underserved areas and to strategic
                       institutions
Digital Television     Digital-to-analog converter box coupon                650            338               332         318          49%
                       program
NIST

Science/Technical      Research, grants, research                            220             87                16         204          93%
Research/Services      fellowships, and advanced research/
                       measurement equipment and supplies
                       Transfer from HHS for the Health                        20             1                 1          19          98%
                       Information Technology Program
                       Transfer from Energy for the Smart                     10              2                 1           9          94%
                       Grid Interoperability Framework
Construction of        To address NIST's backlog of                          360            186                 7         353          98%
Research Facilities    maintenance and renovation and for
                       construction of new facilities and
                       laboratories
NOAA
Operations,            For backlog of research, restoration,                 230            212                47         183          80%
Research, &            navigation, conservation, and
Facilities             management activities
Procurement,           For construction and repair of NOAA                   600             30                10         590          98%
Acquisition, &         facilities, ships, and equipment; to
Construction           improve weather forecasting; and to
                       support satellite development
OIG                    ARRA oversight                                       16b                1                1           15         94%
            TOTALS                                                       $7,946           $2,050             $649       $7,297         92%


 See table notes and source, next page

                                                                       17
       ATTACHMENT TO MARCH 4, 2010, TESTIMONY BY DEPARTMENT OF COMMERCE INSPECTOR GENERAL TODD J. ZINSER ON
          FY 2011 APPROPRIATIONS, SENATE SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES


a
The obligation amount does not include activity for contracts awarded to other federal agencies and referred to as interagency
transfers. This is to remain compliant with OMB reporting guidance, which requires only the receiving agencies of funds to record
obligation and spending activity to avoid double-counting of activity across Recovery Act programs. Given this, the obligation and
spending levels reported are lower than the activity tracked in Commerce’s financial records. The Department estimates amounts
not included in the reporting to total $355 million in obligations, which relate primarily to the NTIA Broadband Technology
Opportunities Program and the NOAA Procurement, Acquisition, and Construction programs.
b
Includes $6 million from the Recovery Act that is available until September 30, 2013, and $10 million transferred from the $4.7-billion
NTIA appropriation for oversight of the Broadband Technology Opportunities Program.


Source: Department of Commerce and OIG




                                                                 18
